September 28, 2000

GARY L. MCCURDY
VICE PRESIDENT, ALLEGHENY AREA OPERATIONS

SUBJECT:	 Audit Report – Lancaster Performance Cluster’s Process for Administering
          Continuation of Pay Leave Benefits
          (Report Number HC-AR-00-003)

This report presents the results of our self-initiated audit of the Lancaster Performance
Cluster’s Process for Administering Continuation of Pay Leave Benefits (Project
Number 00RA058HC001). This report is the third of seven reports we plan to issue
concerning the process for approving and tracking continuation of pay leave benefits in
the Allegheny Area.
The audit revealed opportunities for improving the process of administering these
benefits and complying with Postal Service policies. We provided four
recommendations to improve the process. Management agreed with our finding and
recommendations and the actions taken or planned should correct the issues discussed
in this report. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Ms. Katherine K. Johnson, director, Health
Care Fraud, or me at (703) 248-2300.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment

cc: Yvonne D. Maguire
    Michael W. Benson
    Wayne L. Eggiman
    Joyce A. Martin
    Mike W. Melton
    Timothy F. O’Reilly
    John R. Gunnels
Lancaster Performance Cluster’s Process for             HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                   TABLE OF CONTENTS

Executive Summary
                                           i

Part I 


Introduction 
                                              1

   Background                                               1

   Objective, Scope, and Methodology                        2

   Prior Audit Coverage                                     3


Part II 


Audit Results                                               4


   Continuation of Pay Benefits                             4

   Recommendations                                          9
   Management’s Comments                                    9

   Evaluation of Management’s Comments                     10 


Appendix A. Statistical Sampling Methodology Overview      11 


Appendix B. Prior Audit Coverage                           12 


Appendix C. Continuation of Pay Policy                     14 


Appendix D. Reissued Continuation of Pay Policy            15 


Appendix E. Management’s Comments                          16 

Lancaster Performance Cluster’s Process for                                      HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                  EXECUTIVE SUMMARY
Introduction                  We completed a self-initiated audit to determine whether the
                              Allegheny Area’s process for approving and tracking the use
                              of continuation of pay leave benefits for injured employees
                              complied with the Department of Labor, Office of Workers’
                              Compensation Programs and United States Postal Service
                              policies. This report on the Allegheny Area’s Lancaster
                              Performance Cluster is the third of seven reports we plan to
                              issue concerning the process for approving and tracking
                              continuation of pay leave benefits in the Allegheny Area.

Results in Brief              The audit revealed the Lancaster Performance Cluster’s
                              process for monitoring continuation of pay leave benefits for
                              injured employees needs improvement. Specifically,
                              supervisors and injury compensation control office staff did
                              not always process and monitor continuation of pay leave
                              benefits properly. Consequently, management controls
                              over the processing of continuation of pay leave benefits
                              were ineffective to prevent 51 unnecessary leave and
                              earnings pay adjustments totaling $3,825. In addition, we
                              identified continuation of pay overpayments totaling about
                              $328.

Summary of                    To correct the deficiencies associated with continuation of
Recommendations               pay leave benefits, we recommended Postal Service
                              managers reissue a district-wide policy requiring
                              supervisors to request authorization of continuation of pay
                              leave benefits before any leave entries are made in the
                              payroll system. In addition, Postal Service managers
                              should establish management controls for monitoring
                              continuation of pay leave usage and implement a new
                              management control procedure for reconciling continuation
                              of pay time and attendance reporting.

                              In response to our discussion with Postal Service managers
                              concerning issues in this report, management took
                              immediate corrective action to prevent the inappropriate
                              payment of continuation of pay leave benefits by issuing a
                              memorandum on June 9, 2000, to Postal Service managers
                              in the Lancaster Performance Cluster. The memorandum
                              instructed those managers to request prior authorization of
                              all continuation of pay leave benefits from the injury
                              compensation control office staff.




                                                    i
Lancaster Performance Cluster’s Process for                                      HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


Summary of                    Management agreed with our recommendations and has
Management’s                  taken corrective actions. Management implemented the
Comments                      following corrective actions by (1) issuing on September 15,
                              2000, an addendum to the June 9, 2000, district-wide policy
                              memorandum, (2) developing a process to document the
                              reconciliation of Workers’ Compensation-Injury on Duty
                              report each accounting period, (3) instituting a new
                              management control procedure to perform front-end
                              reconciliation of continuation of pay hours, and
                              (4) instructing the manager, Injury Compensation to re-
                              emphasize using the Continuation of Pay/Leave Without
                              Pay-Injured on Duty Timekeeping Worksheet to monitor
                              continuation of pay hours and days.

                              Management’s comments, in their entirety, are included in
                              Appendix E.

Overall Evaluation of         Management’s comments were responsive to our
Management’s                  recommendations and we believe the actions taken should
Comments                      correct the issues identified in this report.




                                                    ii
Lancaster Performance Cluster’s Process for                                                         HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                            INTRODUCTION
Background 	                     The Department of Labor, Office of Workers’ Compensation
                                 Programs has sole responsibility for administering the
                                 Federal Employees' Compensation Act. The Code of
                                 Federal Regulations, Title 20, Part 10, April 1, 1999,
                                 establishes the rules for claiming benefits under the Federal
                                 Employees' Compensation Act. Specifically, Section 10.200
                                 of the Code of Federal Regulations states, in part, that the
                                 employer must continue an employee’s regular pay for up to
                                 a maximum of 45 calendar days of wage loss due to
                                 disability and/or medical treatment after a traumatic injury.
                                 This provision is called continuation of pay (COP). COP is
                                 considered regular income and unlike workers’
                                 compensation wage loss benefits, COP is subject to income
                                 taxes and other payroll deductions applicable to regular
                                 income. The intent of the COP provision is to eliminate
                                 interruption of the employee’s income during the period
                                 immediately after a job-related traumatic injury, while the
                                 Office of Workers’ Compensation Programs adjudicates1 the
                                 employee’s injury claim. After entitlement to COP leave
                                 benefits expires, the employee may apply for workers’
                                 compensation wage loss benefits or use personal leave.

                                 The United States Postal Service (Postal Service) is
                                 geographically segmented into ten decentralized areas
                                 including the Allegheny Area and Metro Operations. During
                                 fiscal years (FY) 1998 and 1999, postal-wide payments for
                                 COP leave benefits averaged $22.5 million annually for
                                 approximately 23,000 employees. The Allegheny Area
                                 averaged $2.2 million in annual COP benefit payments for
                                 approximately 2,400 employees over the same two-year
                                 time span.

                                 The Allegheny Area is geographically divided into
                                 ten performance clusters including the Lancaster
                                 Performance Cluster. The Postal Service’s Injury
                                 Compensation Control Office (the Control Office) personnel
                                 manage all injury claims for each of the performance
                                 clusters. In addition, Control Office personnel are
                                 responsible for authorizing employee-requested COP leave
                                 benefits.

1
 The process whereby Office of Workers' Compensation Programs considers all information submitted by the
employee, employer, and from its own investigation to reach a decision regarding entitlement to Federal Employees’
Compensation Act benefits.




                                                        1
Lancaster Performance Cluster’s Process for                                                             HC-AR-00-003
 Administering Continuation of Pay Leave Benefits




Objective, Scope, and                Our audit objective was to determine whether the Allegheny
Methodology                          Area, Lancaster Performance Cluster's process for
                                     approving and tracking the use of COP was in compliance
                                     with the Department of Labor, Office of Workers’
                                     Compensation Programs and Postal Service policies. In
                                     addition, we reviewed the management controls applicable
                                     to COP leave benefits.

                                     To accomplish our objectives, we reviewed Postal Service
                                     policies and procedures associated with COP leave
                                     benefits. We interviewed representatives from the Postal
                                     Service Headquarters, Health and Resource Management
                                     office and Lancaster Performance Cluster, Control Office.
                                     In addition, we contacted representatives from the
                                     Department of Labor, Office of Workers' Compensation
                                     Programs to discuss certain aspects of the COP guidance.

                                     This audit was limited to FY 2000 COP injury claims
                                     administered by the Lancaster Performance Cluster for pay
                                     periods 20 through 26 in calendar year 1999 and pay
                                     periods 1 through 7 in calendar year 2000. The Lancaster
                                     Performance Cluster was randomly selected as one of
                                     several performance clusters for an Allegheny Area
                                     projection. We identified 75 COP injury claims in the
                                     Lancaster Performance Cluster’s payroll sample frame for
                                     the audited period. We randomly selected 40 out of the
                                     75 COP injury claims for review.

                                     The performance cluster sample size was calculated based
                                     on an area-wide design and projection. Therefore, the
                                     sample size in any one of the performance clusters is not
                                     designed to provide a specific performance cluster dollar
                                     estimate with tight enough precision to be useful to a
                                     performance cluster. Consequently, we will not project audit
                                     results by individual performance clusters; instead, at this
                                     time we will only report actual unprojected audit results.2

                                     We relied extensively on computer-processed payroll data
                                     contained in the Postal Service Payroll Pay Data and
                                     Employees Master Files. We also relied on prior audit work
                                     performed by the Postal Service Office of Inspector General
                                     on the FY 1999 Postal Service financial statement audit to

2
    Appendix A contains an overview of our statistical sampling design methodology for the area-wide projection.




                                                            2
Lancaster Performance Cluster’s Process for                                      HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                              assess the payroll function’s general and application
                              controls. In addition, we traced statistically-selected data
                              from the Payroll Pay Data and Employee Master Files to the
                              source documentation. Based on prior audit results and
                              alternative testing procedures performed during the audit,
                              we assessed the reliability of these data, including relevant
                              general and application controls, and found them adequate.
                              As a result of tests and assessments, we consider the
                              computer-processed data significantly reliable to satisfy the
                              audit objectives.

                              We conducted the audit fieldwork from April 2000 through
                              September 2000, in accordance with generally accepted
                              government auditing standards and included such tests of
                              management controls as were considered necessary under
                              the circumstances. We also discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.

Prior Audit Coverage 	 Since February 1996, the President’s Council on Integrity
                       and Efficiency issued one consolidated audit report on
                       workers’ compensation to include COP issues. In addition,
                       the Postal Service Office of Inspector General, issued two
                       audit reports related to the Eagan, Minnesota, Information
                       Systems and Accounting Service Center for the FY ended
                       September 30, 1999. The Eagan, Minnesota, Information
                       Systems and Accounting Service Center has four
                       departments. Our prior audit focused on two out of the four
                       departments. Of these, the Integrated Business Systems
                       Solutions Center concentrates on support and development
                       for payroll and other clients. In addition, the accounting
                       service center is responsible for a variety of accounting
                       activities to include the payroll function. See Appendix B for
                       prior audit report details.




                                                    3
Lancaster Performance Cluster’s Process for                                                           HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                           AUDIT RESULTS
Continuation of Pay              The Lancaster Performance Cluster supervisors and Control
Benefits                         Office staff did not always process and monitor COP leave
                                 benefits properly. Specifically, we found that 21 out of the
                                 40 COP injury claims reviewed contained COP benefit
                                 errors. The listing of COP injury claims recorded in error is
                                 provided in the table. The incorrect processing of COP
                                 leave benefits occurred because supervisors did not always
                                 follow established procedures for authorizing and
                                 documenting COP leave benefits. In addition, the Control
                                 Office staff did not effectively monitor COP usage.
                                 Consequently, management controls over the processing of
                                 COP leave benefits were ineffective to prevent
                                 51 unnecessary pay adjustments needed to correct
                                 employees’ applicable sick, annual, or other leave balances.
                                 The cost to process those pay adjustments was estimated
                                 at $3,825.3 In addition, we identified COP overpayments
                                 totaling approximately $328.4

                                              Continuation of Pay Leave Benefits Processed In Error
                                                Lancaster Performance Cluster Pay Adjustments

                                  Injury Claims       Record ID          Number of Pay          Cost at $75 per
                                   With Errors         Number             Adjustments            Adjustment
                                          1                3                   2                  $150.00
                                          2                4                   9                   675.00
                                          3                5                   1                    75.00
                                          4              10                    1                    75.00
                                          5              13                    3                   225.00
                                          6              16                    1                    75.00
                                          7              18                    3                   225.00
                                          8              20                    6                   450.00
                                          9              22                    1                    75.00
                                         10              23                    1                    75.00
                                         11              25                    5                   375.00
                                         12              30                    1                    75.00
                                         13              33                    7                   525.00
                                         14              38                    2                   150.00
                                         15              39                    1                    75.00
                                         16              43                    1                    75.00
                                         17              44                    1                    75.00
                                         18              55                    1                    75.00
                                         19              60                    1                    75.00
                                         20              66                    2                   150.00
                                         21              69                    1                    75.00
                                                        Totals                 51               $3,825.00

3
  The Postal Service estimates each pay adjustment costs $75 on average and in some extreme cases, pay
adjustments could cost as much as $175 based on the time expended by responsible Postal Service employees. For
audit reporting purposes, we used the lower estimate of $75 per pay adjustment.
4
  COP overpayments result when COP hours are paid in error and the employee does not have any available sick or
annual leave to cover the absence mistakenly recorded as COP hours. COP overpayments also result when COP
hours are paid in error while the employee is simultaneously receiving wage compensation payments from the Office
of Workers’ Compensation Programs. Consequently, recovery procedures must be executed to collect overpaid COP
hours from the employee.




                                                       4
Lancaster Performance Cluster’s Process for                                             HC-AR-00-003
 Administering Continuation of Pay Leave Benefits



Authorizing                         Following established procedures for authorizing COP leave
Continuation of Pay                 benefits are essential in preventing unauthorized COP leave
Leave Benefits                      benefits and unnecessary pay adjustments. On April 17,
                                    1997, the district manager, Lancaster Performance Cluster,
                                    issued a memorandum5 addressing the authorization
                                    process for COP leave benefits. The memorandum stated
                                    the unauthorized input of COP leave benefits resulted in
                                    overpayments of COP leave benefits and costly pay
                                    adjustments to the Lancaster Performance Cluster to
                                    correct those errors.

                                    The COP authorization process required supervisors to
                                    inform the Control Office staff of any and all COP benefit
                                    payments. In addition, employees’ requests for COP leave
                                    benefits on PS Forms 3971, Request for or Notification of
                                    Absence, had to be sent to the Control Office staff for prior
                                    authorization. The memorandum further stated complying
                                    with this authorization process would facilitate better
                                    management of COP hours and reduce the number of
                                    unnecessary pay adjustments.

                                    Supervisors did not always follow the authorization process
                                    authorizing COP leave benefits implemented in April 1997.
                                    Specifically, supervisors did not receive proper authorization
                                    from the Control Office staff before approving employee
                                    COP leave benefits for 12 out of the 21 injury claims we
                                    identified with COP errors. Furthermore, 5 out of the
                                    12 injury claims represented uninjured employees who
                                    received unauthorized COP leave benefits instead of the
                                    appropriate annual, sick, or other leave benefits. The
                                    supervisors’ failure to request and receive proper
                                    authorization from the Control Office staff for COP leave
                                    benefits led to 22 unnecessary pay adjustments and COP
                                    overpayments totaling approximately $230.

                                    When uninjured employees receive unauthorized COP
                                    leave benefits, the Postal Service is essentially allowing
                                    these employees an approved absence from work,
                                    unrelated to an on-the-job injury. Moreover, the uninjured
                                    employees’ applicable sick or annual leave balances are not
                                    reduced and remain overstated.


5
    See Appendix C for the full text of the April 17, 1997, memorandum.




                                                            5
Lancaster Performance Cluster’s Process for                                     HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


Documenting Requests Proper timekeeping and accounting procedures are
for Continuation of Pay essential for effective management and administration of
Leave Benefits          the injury compensation program. Postal Service
                        timekeeping and accounting guidelines provided special
                        requirements for COP. For instance, a supervisor must
                        ensure a Form 3971 is completed promptly after being
                        advised of an employee request for COP leave benefits.
                        When a traumatic injury occurs and employees are unable
                        to initiate the Form 3971 to request COP leave benefits,
                        supervisors are expected to perform this function. The
                        senior installation official is required to retain Forms 3971
                        for two years from the date the leave is taken or
                        disapproved. Contrary to this guidance, supervisors did not
                        always follow established procedures for documenting
                        requests for COP leave benefits. Our review disclosed that
                        Forms 3971 for 34 out of the 40 injury claims were either
                        improperly prepared or did not exist. We were unable to
                        reconcile requested COP leave benefits with paid COP
                        hours due to improperly completed or missing Forms 3971.

                              Although Forms 3971 were improperly prepared or missing,
                              we used other injury claim file documentation to determine
                              appropriate COP leave benefits. Employees must complete
                              a Form 3971 to document requested COP leave benefits,
                              which are not automatically provided to injured employees.
                              Therefore, improperly prepared or missing Forms 3971
                              made it difficult to determine whether employees initially
                              requested any COP leave benefits. Consequently, without
                              an adequate audit trail, we are not reasonably assured that
                              all COP hours recorded in the payroll system resulted from
                              employee requests for COP leave benefits.

Monitoring                    Monitoring COP usage includes actively reviewing injury
Continuation of Pay           claim files to ensure appropriate COP leave benefits are
Usage                         provided to employees. Postal Service Handbook, EL-505,
                              Injury Compensation, December 1995, Chapter 13,
                              "Timekeeping and Accounting," provided guidance for
                              monitoring COP. Chapter 13, Section 13.1, "Tracking Time
                              for COP," states the Control Office staff must monitor COP
                              hours and days to ensure employees do not receive COP
                              leave benefits for more than a 45-calendar day period for
                              any one injury associated with the tracking of COP leave
                              benefits. In addition, the guidance requires the Control
                              Office staff to actively manage injury claims to ensure
                              employees receive the COP leave benefits they are entitled.




                                                    6
Lancaster Performance Cluster’s Process for                                                          HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                  Our review disclosed situations where the Control Office
                                  staff did not effectively monitor COP usage from the
                                  inception of the injury claim through its COP eligibility
                                  timeframe. We identified 9 properly authorized COP injury
                                  claims, out of 21 with COP errors that the Control Office
                                  staff did not adequately monitor. In addition to 22 pay
                                  adjustments resulting from supervisors’ improperly
                                  authorizing COP hours, the Control Office staff failure to
                                  properly monitor COP hours resulted in 29 additional pay
                                  adjustments and COP overpayments totaling about $98.

                                  Section 13.17, "Recovering Excessive COP Hours," states
                                  the Control Office staff should use the “Workers’
                                  Compensation–Injury on Duty,” report6 to review COP data.
                                  The report is used to reconcile COP leave benefits after
                                  those benefits have been reported and paid. We found the
                                  Control Office staff did not reconcile the Workers'
                                  Compensation – Injury on Duty report with COP injury
                                  claims as required by Postal Service Handbook guidance.
                                  Specifically, the Control Office staff only conducted a
                                  cursory review to ensure the maximum number of COP
                                  hours an employee was entitled to receive per injury was
                                  not exceeded. Had the Control Office staff used the existing
                                  report tool to reconcile COP hours rather than performing a
                                  trend review, the 12 improperly authorized injury claims
                                  previously discussed would have been identified for
                                  correction prior to our audit.

                                  The existing report is a back-end monitoring control and, if
                                  used as intended, can readily identify inappropriately
                                  authorized COP leave benefits. However, the existing
                                  report was not designed to determine whether employees
                                  were initially entitled to COP leave benefits. Therefore, a
                                  front-end reconciliation control was needed to assist the
                                  Control Office staff in weekly monitoring of COP hours.

                                  We determined the Postal Service already has a front-end
                                  reconciliation capability within the electronic time clock
                                  system.7 The electronic time clock system can generate a
                                                                                   8




6
 This report is automatically generated each accounting period.
7
 The electronic time clock system is used to report time and attendance for the majority of Postal Service employees
in the Lancaster Performance Cluster. However, the electronic time clock system does not capture time and
attendance for rural carriers.




                                                         7
Lancaster Performance Cluster’s Process for                                                         HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                 time and attendance exception report8 (ETC-245P1) to
                                 identify COP and other hourly leave categories. In our
                                 opinion, the use of this front-end reconciliation capability, if
                                 implemented, could reasonably reduce the recording of
                                 inappropriate COP hours, thereby avoiding unnecessary
                                 payroll adjustments.

                                 Further, we determined the Control Office staff did not
                                 annotate the case files to document authorized COP usage.
                                 Chapter 13, Section 13.1 states the “COP/Leave Without
                                 Pay-Injury on Duty Timekeeping Worksheet,” should be
                                 used for assisting Control Office staff with tracking actual
                                 COP hours and days used by an employee. The Control
                                 Office staff did not consistently use the COP/Leave Without
                                 Pay-Injury on Duty Timekeeping Worksheet to monitor
                                 employee COP hours and days. Had the Control Office
                                 staff used the worksheet, the COP leave benefits paid for
                                 exceeding the 45-calendar day entitlement period for any
                                 one injury and unnecessary pay adjustments could have
                                 been avoided. Furthermore, proper use of the COP/Leave
                                 Without Pay-Injury on Duty Timekeeping Worksheet
                                 provides internal staff and external reviewers the ability to
                                 obtain a timely, chronological listing of events that have
                                 occurred on each individual injury claim.

Management Action 	              On June 6, 2000, we verbally reported the results of our
                                 review to the Lancaster Performance Cluster management.
                                 We stressed while the Control Office staff was working
                                 diligently in trying to administer the approval and tracking of
                                 COP leave benefits, supervisors were inputting COP hours
                                 without prior authorization from the Control Office, causing
                                 overpayments of COP leave benefits and costly pay
                                 adjustments. We recommended that the district manager,
                                 Lancaster Performance Cluster, reissue a district-wide
                                 policy requiring every supervisor to request authorization of
                                 COP hours from the Control Office staff before any COP
                                 hours are input into the payroll system. In addition, the
                                 policy letter should require supervisors to submit copies of
                                 all COP leave requests to the Control Office. Accordingly,




8
 An electronic time clock exception report should be requested no later than Friday of each week. The review and
validation of COP time reporting should be completed before the COP hours are finalized in the payroll system.




                                                        8
Lancaster Performance Cluster’s Process for                                                            HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                    the district manager, Lancaster Performance Cluster, issued
                                    a memorandum9 on June 9, 2000, implementing our
                                    recommendation. As a result, we did not include this
                                    recommendation in the report.

Recommendation                      We recommend the vice president, Allegheny Area, prevent
                                    the improper processing of continuation of pay benefits
                                    within the Lancaster Performance Cluster, by directing the
                                    district manager to:

                                         1. Issue an addendum to the June 9, 2000, district-wide
                                             continuation of pay memorandum to include:

                                                a)	 Instructions detailing supervisory
                                                    responsibilities for ensuring the proper
                                                    completion of continuation of pay leave
                                                    requests.10

                                                b)	 New management control procedures requiring
                                                    proper processing of all continuation of pay
                                                    leave requests to the finance and timekeeping
                                                    elements and retention of supporting
                                                    documentation in employee injury claim files.

Management’s 	                      Management agreed with the recommendation and on
Comments 	                          September 15, 2000, issued an addendum to the June 9,
                                    2000, district-wide continuation of pay memorandum. The
                                    addendum stressed supervisory responsibilities for ensuring
                                    accurate completion of continuation of pay leave requests,
                                    processing of all continuation of pay leave requests to the
                                    finance and timekeeping elements, and retention of
                                    supporting documentation in employee injury claim files.

Recommendation                          2. Direct the manager, Human Resources, to require
                                           personnel in the injury compensation control office to
                                           execute frequent monitoring of continuation of pay
                                           usage. Specifically, a process should be established
                                           to document the reconciliation of the Workers’
                                           Compensation–Injury on Duty report each
                                           accounting period and ensure appropriate corrective
                                           actions are executed.
Management’s                        Management agreed with our recommendation and stated
Comments                            the manager, Injury Compensation Control Office will be
                                    required to daily monitor and reconcile the Employee

9
    See Appendix D for the full text of the June 9, 2000, memorandum. 

10
     Employee requests for leave hours are reported on PS Form 3971 “Request for or Notification of Absence.” 





                                                           9
Lancaster Performance Cluster’s Process for                                       HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                              Activity Report for any erroneous continuation of pay hours
                              input and take appropriate action. In addition, the manager,
                              Injury Compensation Control Office has developed a
                              process to document the reconciliation of the Workers’
                              Compensation-Injury on Duty report each accounting period
                              to ensure appropriate actions are executed.

Recommendation                    3. Direct the manager, Human Resources, to implement
                                     a new management control procedure to perform a
                                     front-end reconciliation of continuation of pay hours.
                                     The management control procedure should require
                                     injury compensation control office personnel to
                                     perform a weekly review and validation of
                                     continuation of pay hours before time accounting is
                                     finalized in the payroll system.

Management’s                  Management agreed with our recommendation and stated it
Comments                      has implemented a process to perform front-end
                              reconciliation of continuation of pay hours.

Recommendation                     4. Direct the manager, Human Resources, to instruct
                                      the manager of the Injury Compensation Control
                                      Office to re-emphasize using the Continuation of
                                      Pay/Leave Without Pay-Injury on Duty Timekeeping
                                      Worksheet to monitor employee COP hours and
                                      days. The manager should require each Human
                                      Resource specialist to include the worksheet in the
                                      injury claim files to facilitate timely internal and
                                      external review of the files.

Management’s                  Management agreed with our recommendation and stated
Comments                      they have instructed the manager, Injury Compensation to
                              re-emphasize using the Continuation of Pay/Leave Without
                              Pay-Injured on duty Timekeeping Worksheet to monitor
                              employee continuation of pay hours and days. In addition,
                              the worksheet will be maintained in the injury compensation
                              claim files.

Evaluation of                 Management’s comments were responsive to our finding
Management’s                  and recommendations and we believe the actions taken
Comments                      should correct the issues identified in this report.




                                                    10
Lancaster Performance Cluster’s Process for                                   HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                                          APPENDIX A
           STATISTICAL SAMPLING METHODOLOGY OVERVIEW
This appendix summarizes the area-wide sample design and indicates where the
Lancaster Performance Cluster fits into that design. We designed a stratified sampling
procedure for the Allegheny Area, including the area Control Office and its ten
performance clusters. However, we determined the number of COP injury claims
identified for the Allegheny Area’s Control Office in FY 2000 was insignificant.
Therefore, we excluded the Allegheny Area’s Control Office from the sample selection
process used to determine potential audit locations. The first stratum consisted of the
two performance clusters with the smallest number of COP injury claims. We took a
census of these two clusters and reviewed all of their injury claims. The second stratum
consisted of the other eight performance clusters; we randomly selected four out of the
eight performance clusters for audit. Because of the larger number of COP injury
claims in the four selected performance clusters, we randomly selected samples of COP
injury claims from within those clusters. The Lancaster Performance Cluster was
randomly selected as one of the four second-stratum locations to be reviewed.

The sample size in any one of the performance clusters is not designed to provide a
specific performance cluster dollar estimate with tight enough precision to be useful to a
performance cluster. Consequently, we will not project audit results by individual
performance clusters; instead, at this time we will only report actual unprojected audit
results. After all statistically selected locations have been audited, we will perform a
weighted projection of the overall COP audit results. We will relate the area-wide
projection results in a consolidated report for the Allegheny Area.




                                                    11
Lancaster Performance Cluster’s Process for                                    HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                     APPENDIX B. PRIOR AUDIT COVERAGE
The Postal Service, Office of Inspector General issued an audit report number
FR-AR-00-006, Fiscal Year 1999 Postal Service Financial Statement Audit – Eagan
Information Service Center, February 25, 2000. The audit report detailed the results of
an audit on the financial activities and accounting records at the Eagan, Minnesota
Information Systems and Accounting Service Center (formerly the Minneapolis
Information Systems and Accounting Service Center) for the fiscal year ended
September 30, 1999. The audit was conducted in support of the independent public
accounting firm’s overall Postal Service financial statement audit. The objectives of the
audit were to determine whether:

        1. Financial accounting policies and procedures provide for an adequate internal
           control structure and are in compliance with generally accepted accounting
           principles.

        2. General ledger account balances for assets, liabilities, equity, income,
           expenses, and commitments of the Postal Service are fairly stated in the
           national consolidated trial balance in accordance with generally accepted
           accounting principles.

        3. General ledger account balances conform to the general classification of
           accounts of the Postal Service on a basis consistent with that of the previous
           year.

The audit disclosed that management’s policies, accounting procedures, and internal
controls conformed with generally accepted accounting principles. The audit report did
identify two internal control weaknesses concerning the accuracy of back pay awards
and terminal leave payments. As part of the review, they reviewed the internal controls,
tested transactions, and verified account balances. The audit was conducted from
November 1998 through February 2000 in accordance with generally accepted
government auditing standards and included such tests of internal controls, as were
considered necessary under the circumstances.

The Postal Service, Office of Inspector General also issued an audit report number
FR-AR-99-009, Fiscal Year 1999 Information System Controls, Minneapolis Information
Service Center, September 29, 1999. The audit report detailed the results of an audit
on the information system controls at the Minneapolis Information Service Center. The
audit was performed as part of the FY 1999 financial statement audit. The objective of
the audit was to evaluate the adequacy of general controls over information systems at
the Minneapolis Information Service Center. The audit concluded that general controls
over software and data security at the Minneapolis Information Service Center (now
referred to as the Eagan Information Service Center) were generally adequate. The
audit report did identify issues requiring corrective actions regarding mainframe security,
application change control, local area network security, and UNIX security. This audit




                                                    12
Lancaster Performance Cluster’s Process for                                   HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


was conducted from December 1998 to August 1999 in accordance with generally
accepted government auditing standards and included tests of internal controls as were
considered necessary.

The President's Council on Integrity and Efficiency, Audit Committee issued a
consolidated audit report number 02-96-223-04-431, Consolidated Report on the Audit
of Employing Agency Workers’ Compensation Programs, February 16, 1996, on
workers’ compensation. The Department of Labor, Office of Inspector General led this
audit of 13 Inspector General agencies. The audit was designed to evaluate the
effectiveness and efficiency of employing agency workers' compensation programs and
the audit report summarizes the results of those 13 audits. Specifically, the audit report
provided an observation on continuation of pay leave benefits.

The Department of Transportation, Office of Inspector General was the only agency
who reported on continuation of pay leave benefits. The Department of Transportation,
Office of Inspector General reported 26 percent of the claims reviewed received
continuation of pay although:

       •	 The Office of Workers’ Compensation Programs denied compensation claims.
       •	 The time for eligible use had expired.
       •	 No claim had been submitted to the Office of Workers’ Compensation
          Programs.

The Department of Transportation, Office of Inspector General recommended
employees' leave should be charged retroactively. Each Office of Inspector General
was responsible for follow-up action on specific recommendations made to employing
agency officials. Overall, employing agency officials agreed that improvements were
needed in the workers' compensation program.




                                                    13
Lancaster Performance Cluster’s Process for              HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                APPENDIX C. CONTINUATION OF PAY POLICY




                                                    14
Lancaster Performance Cluster’s Process for              HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


        APPENDIX D. REISSUED CONTINUATION OF PAY POLICY




                                                    15
Lancaster Performance Cluster’s Process for              HC-AR-00-003
 Administering Continuation of Pay Leave Benefits


                   APPENDIX E. MANAGEMENT’S COMMENTS




                                                    16
Lancaster Performance Cluster’s Process for              HC-AR-00-003
 Administering Continuation of Pay Leave Benefits




                                                    17
